HHS/OIG, Audit - "Review of High-Dollar Payments for District of Columbia
Medicare Part B Claims Processed by TrailBlazer Health Enterprises for the
Period January 1, 2003, Through December 31, 2005," (A-03-07-00019)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of High-Dollar Payments
for District of Columbia Medicare Part B Claims Processed by TrailBlazer Health Enterprises
for the Period January 1, 2003, Through December 31, 2005," (A-03-07-00019)
June 19, 2008
Complete
Text of Report is available in PDF format (190 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
TrailBlazer Health Enterprises (TrailBlazer) overpaid providers $89,000 for 5 of the 36 high-dollar payments
($10,000 or more) for calendar years (CY) 2003-05. Twenty-nine payments were
appropriate. TrailBlazer, the Medicare Part B carrier for the District of
Columbia, processed 36 high-dollar payments during the audit period.  One
provider refunded an overpayment totaling $36,000 prior to our fieldwork.  Four
overpayments totaling $53,000 remain outstanding.  For two payments, the provider
was no longer in business.
We recommended that TrailBlazer: (1) recover the $53,000 in overpayments and (2)
consider identifying and recovering any additional overpayments made to
providers for high-dollar Part B claims paid after CY 2005.  TrailBlazer stated
that it had initiated the recovery of the outstanding overpayments identified by
the audit and had implemented multiple internal controls since 2003, including
in June 2005 the addition of an edit to review high-dollar Part B claim.
However, because it does not receive funding to do so, it would not identify and
recover and additional overpayments for high-dollar Part B claims paid after CY
2005.